No.

 

IN THE
Supreme Court of the United States

BRADLEY LEDURE,
Petitioner,
Vv.

UNION PACIFIC RAILROAD COMPANY,
Respondent.

On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Seventh Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document
contains 7,997 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 10, 2020

DG

Nelson G. Wolff
SCHLICHTER BOGARD & DENTON LLP
